HHS/OIG-Audit--"Follow-up Review on the Medicaid Reimbursement Method for Healthwin Hospital" (A-05-97-00029)
Department of Health and Human Services
Office of Inspector General -- AUDIT
Follow-up Review on the Medicaid Reimbursement Method for Healthwin Hospital,
(A-05-97-00029)
November 25, 1997
Complete Text of Report is available in PDF format (369
kb). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
In a prior audit report we found that Healthwin Hospital had received Medicaid
overpayments based on a reimbursement system patterned after the Medicare Tax
Equity Financial Responsibility Act of 1982 (TEFRA). Final settlement of reimbursement
levels under this system depended on the number of discharges made during the
year. The TEFRA payment system was unsuitable for Healthwin because the hospital
served mainly long term patients and had few discharges. Despite the lack of
discharges, Healthwin received numerous interim payments from Medicaid and was
paid approximately $800,000 over actual costs in 1991. We recommended that the
State agency in Indiana confer with the Health Care Financing Administration
in negotiating a settlement with Healthwin on all outstanding overpayments.
The Indiana State agency concurred and has proposed a settlement of $3.1 million
($2.0 million Federal share) to resolve all overpayment issues for the years
1988 through 1995. We reviewed the proposed settlement and related documentation
and concluded the settlement amount was reasonable.